Good O' Boy Roundup Report - March, 1996 Table of Contents
Good O' Boy Roundup Report -
March, 1996
Table of Contents
Select from the
following items:
(After reading
the selection use your browser's GO/BACK feature to return here)

Executive Summary 
I. Introduction 
II. The OIG Investigation of
        the Good O' Boy Roundup 
A. The Nature of the
        Allegations 
1. A
                "whites-only" policy and general racist
                intent 
2. Racist signs 
3. Racist T-shirts 
4. Racist skits 
5. "Nigger hunting
                licenses" 
6. Racist statements to
                individuals 
7. Other racist conduct
                
8. Criminal and other
                misconduct 
9. Misuse of government
                property and time 


B. The OIG Investigation 
1. Identification of
                Roundup participants 
2. OIG interviews of
                participants 
3. OIG efforts to
                obtain the cooperation of persons making
                allegations of misconduct 
4. OIG efforts to
                obtain the cooperation of persons identified as
                responsible for racist conduct 
5. OIG interviews of
                other witnesses 
6. Interview protocols
                followed by OIG 
7. Cooperation with
                other investigations 
8. Collection of
                physical evidence 


III. The History of the Roundup
        
A. The First Roundup 
B. The Intended Purpose of the
        Roundup 
C. Invitations 
D. Attendance 
E. Location 
F. Officially Sponsored
        Activities 
1. Sports 
2. Competitions 
3. Other activities 


G. Structure and Organization 
H. Rules 
I. T-shirts and Other
        Memorabilia 
IV. OIG Findings Regarding
        Allegations of Racial and Criminal Misconduct at the
        Roundup 
A. OIG Findings Regarding
        Specific Allegations of Racist Misconduct 
1. 1980 
2. 1981 
3. 1982 
4. 1983 
5. 1984 
a)
                        Evidence of racist misconduct in 1984 
b) OIG
                        findings regarding racist misconduct at
                        the 1984 Roundup 


6. 1985 
a)
                        Evidence of racist misconduct in 1985 
b) OIG
                        findings regarding racist misconduct at
                        the 1985 Roundup 


7. 1986 
8. 1987 
9. 1988 
10. 1989 
a)
                        Allegations of racist signs 
b)
                        Allegation of an effigy 
c)
                        Allegation of ATF agents checking cars
                        for "niggers" 
d)
                        Allegation of racist cassette tapes 
e)
                        Allegation of a "running
                        nigger" T-shirt and OIG findings 
f)
                        General witness credibility 
g)
                        Hayward's credibility 


11. 1990 
a)
                        Allegation of posting of checkpoint sign 
b)
                        Allegations of persons checking cars for
                        "niggers" 
c)
                        Allegations of a Ku Klux Klan skit 
d)
                        Allegations of display of Confederate
                        flags 


12. 1991 
a)
                        Allegation of persons checking cars for
                        "niggers" and OIG findings 
b)
                        Allegation of posting of a racist sign
                        and OIG findings 
c)
                        Allegation of selling Boyz on the Hood
                        T-shirts and OIG findings 
d)
                        General findings regarding racism in 1991
                        


13. 1992 
a)
                        Allegations of racist signs and checking
                        cars for "niggers" 
b)
                        Allegations of distribution of David Duke
                        materials 
c)
                        Allegation of performance of a watermelon
                        skit 
d)
                        Allegation of selling a racially
                        insensitive Buckwheat T-shirt 
e)
                        Allegations of display of a Confederate
                        flag 


14. 1993 
a)
                        Evidence of racist misconduct in 1993 
b) OIG
                        findings regarding allegations of racist
                        misconduct in 1993 


15. 1994 
a)
                        Allegation of persons checking cars for
                        "niggers" and OIG findings 
b)
                        Allegation of a person donning a white
                        hood and OIG findings 
c)
                        Allegation of other racial misconduct and
                        OIG findings 


16. 1995 
a) The
                        Jack Scott confrontation 
b)
                        Other racist comments regarding the
                        presence of blacks 
c)
                        Allegations of racist T-shirts 
d)
                        Allegation of the presence of
                        "nigger hunting licenses" 
e)
                        Allegation of graffiti on portable
                        toilets and a racially insensitive statue
                        in a jeep 




B. OIG Findings Regarding
        General Allegations of Racist Intent and a
        "Whites-Only" Policy 
1. The name of the
                event 
2. Location of event 
3. Invitation policies 
a)
                        Invitation content 
b)
                        Distribution policies 
c)
                        Personal invitations 
d)
                        Perspectives of minority agents 
e) OIG
                        findings regarding Roundup invitation
                        policies 


4. Attendance 
a)
                        Controls over Roundup attendance 
b)
                        Minority attendees 
c)
                        Factors affecting minority attendance 
d)
                        Minority experiences at the Roundup 
e) OIG
                        findings regarding minority attendance at
                        the Roundup 


5. Leadership 
a)
                        Official positions 
b)
                        Allegations of racism in the leadership
                        ranks 


6. Official activities 
a)
                        Competitions 
b)
                        Official noncompetitive events 
c)
                        Rules 


7. Policy versus
                perception and reality 


C. Findings Regarding
        Allegations of Other Misconduct 
1. Allegations of
                distribution or use of illegal substances 
a)
                        Drug distribution 
b)
                        Drug use 
c)
                        Moonshine 
d) OIG
                        findings regarding allegations of drug
                        distribution or use and moonshine 


2. Allegations of rape
                and other unwanted sexual conduct 
a)
                        Rapes 
b)
                        Unwanted sexual conduct 
c) OIG
                        findings regarding rapes and unwanted
                        sexual conduct 
d) OIG
                        findings regarding treatment of women
                        generally 


3. Allegations of
                prostitution, strippers and public sex 
a)
                        Prostitution 
b)
                        Strippers 
c)
                        Public sex at Grumpy's 
d) OIG
                        findings regarding prostitution,
                        strippers, and public sex 


4. Allegation regarding
                bestiality and OIG findings 
5. Allegations
                regarding gambling and OIG findings 
6. Allegations of
                nudity 
a)
                        Evidence 
b) OIG
                        findings regarding nudity 


7. Allegations
                regarding misuse of DOJ property and time and OIG
                findings 


D. Summary of OIG Findings
        Regarding Allegations of Racist and Other Misconduct at
        the Roundup 
1. A
                "whites-only" policy and general
                discriminatory intent 
2. Racist signs 
3. Racist T-shirts 
4. Racist skits 
5. "Nigger hunting
                licenses" 
6. Racist statements to
                individuals 
7. Other racist conduct
                
8. Criminal and other
                misconduct 
9. Misuse of government
                property and time 


V. DOJ Employee Participation
        in the Roundup 
A. The Relative Size of DOJ
        Participation in the Roundup 
B. Evaluating DOJ Participation
        in the Roundup 
C. OIG Findings Regarding DOJ
        Personnel and the Presence of Racist or Other Misconduct 
1. OIG findings
                regarding Roundup participation by Bureau of
                Prison employees 
2. OIG findings
                regarding Roundup participation by DEA employees 
3. OIG findings
                regarding Roundup participation by EOUSA
                employees 
4. OIG findings
                regarding Roundup participation by FBI employees 
5. OIG findings
                regarding Roundup participation by INS employees 
6. OIG findings
                regarding Roundup participation by OIG employees 
7. OIG findings
                regarding Roundup participation by USMS employees
                


D. Management Knowledge 
VI. OIG Recommendations 
VII. Conclusion 

NOTE:
Not all Figures in the hardcopy version are in this hypertext
version.